APPENDIX A

No Shepard’s Signal™
As of: September 3, 2020 3:23 PM Z

United States v. Davis
United States Court of Appeals for the Sixth Circuit
July 16, 2020, Filed
File Name: 20a0411n.06
Case No. 19-6382
Reporter
2020 U.S. App. LEXIS 22375 *; 2020 FED App. 0411N (6th Cir.)

UNITED STATES OF AMERICA,
Plaintiff-Appellee, v. LORENZO DAVIS,
Defendant-Appellant.

Notice: NOT RECOMMENDED FOR
FULL-TEXT PUBLICATION. SIXTH
CIRCUIT RULE 28 LIMITS CITATION
TO SPECIFIC SITUATIONS. PLEASE
SEE RULE 28 BEFORE CITING IN A
PROCEEDING IN A COURT IN THE
SIXTH CIRCUIT. IF CITED, A COPY
MUST BE SERVED ON OTHER
PARTIES AND THE COURT. THIS
NOTICE IS TO BE PROMINENTLY
DISPLAYED IF THIS DECISION IS
REPRODUCED.

Prior History: [*1] ON APPEAL FROM
THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT
OF TENNESSEE.

Case Summary
Overview
HOLDINGS: [1]-Evidence was sufficient to
convict defendant of armed bank robbery,
brandishing a firearm with felon-inpossession because the jury had ample
evidence to conclude that defendant was in
fact the perpetrator where he was identified
by the two other men involved in the
robbery as the one who forced the victim to
withdraw money and as the carjacker by his
victim in the carjacking incident, and
multiple witnesses also testified that
defendant possessed a firearm during both
the robbery and the carjacking; [2]-The
district court did not err by relying on
acquitted conduct to increase defendant’s
sentence guideline range because district
courts were permitted to use acquitted
conduct when sentencing a defendant.

Outcome
Judgment affirmed.

Page 2 of 5
2020 U.S. App. LEXIS 22375, *1

Witnesses
HN2[ ]
Substantial
Sufficiency of Evidence
LexisNexis® Headnotes

The appellate court may not consider the
credibility of witnesses when reviewing the
sufficiency of the evidence.

Criminal Law &
Procedure > Appeals > Standards of
Review > Deferential Review
Criminal Law & Procedure > Juries &
Jurors > Province of Court & Jury
Criminal Law &
Procedure > Trials > Verdicts
HN1[ ]
Standards
Deferential Review

Evidence,

of

Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Evidence
HN3[ ]
Evidence

Imposition

of

Sentence,

The appellate court permits district courts to
use acquitted conduct when sentencing a
Review, defendant.

The appellate court's review of the jury
verdict is deferential. That's because
juries—not
judges—decide
what
conclusions should be drawn from evidence
admitted at trial. Thus, the appellate court
views the evidence in the light most
favorable to the government and draws all
reasonable inferences in the government's
favor. Then the appellate court asks whether
any rational jury could have convicted
defendant.

Criminal Law &
Procedure > ... > Standards of
Review > Substantial
Evidence > Sufficiency of Evidence
Evidence > Types of
Evidence > Testimony > Credibility of

Counsel: For UNITED STATES OF
AMERICA, Plaintiff - Appellee: Patrick
Neal Oldham, Office of the U.S. Attorney,
Memphis, TN; Kevin G. Ritz, Assistant
U.S. Attorney, Office of the U.S. Attorney,
Memphis, TN.
For LORENZO DAVIS, Defendant Appellant: Needum L. Germany, III,
Assistant Federal Public Defender, Federal
Public Defender, Memphis, TN.

Judges: BEFORE: GRIFFIN,
KETHLEDGE, and THAPAR, Circuit
Judges.

Page 3 of 5
2020 U.S. App. LEXIS 22375, *1

Opinion by: THAPAR

Opinion
THAPAR, Circuit Judge. A jury convicted
Lorenzo Davis of multiple crimes for his
involvement in an armed bank robbery and
a carjacking. Because the jury had enough
evidence to convict, and the district court
made no errors at sentencing, we affirm.
Andre Hollingsworth was walking home in
the middle of the night when three men
approached him. One of the men (later
identified as Davis) brandished a gun and
ordered Hollingsworth to hand over his
money. Davis then searched Hollingsworth
and took his phone and wallet. After the
robbers found that the wallet contained a
debit card, they threatened to kill
Hollingsworth unless he told them his PIN.
Hollingsworth agreed to do so, and Davis
took him (at gunpoint) [*2] to a nearby
ATM, where Davis used the debit card to
withdraw money. After that, Davis let
Hollingsworth go.
The following night, Calvin Marion was
driving in the same area when a man waved
for him to stop. When Marion did so, the
man (later identified as Davis) approached
the car and then allegedly pulled out a gun
and shot Marion in the neck. Davis ordered
Marion to exit his vehicle and walk with
him into a nearby field. Once in the field,
Davis made Marion turn over his
belongings and strip naked. Davis—while

keeping his gun trained on Marion—
retreated to Marion's car and sped off with
it.
After investigating these crimes, law
enforcement obtained an indictment
charging Davis with six counts. Count One
charged Davis with armed bank robbery
(the forced ATM withdrawal). Count Two
charged Davis with using, carrying, and
brandishing a firearm during a crime of
violence (the bank robbery). Count Three
charged Davis with carjacking with intent to
cause death or serious bodily injury. Count
Four charged Davis with using, carrying,
brandishing and discharging a firearm
during a crime of violence (the carjacking).
And Counts Five and Six charged Davis
with being a felon in possession of a
firearm. [*3]
Davis went to trial, and a jury convicted
Davis for the first two counts (related to the
bank robbery) along with the felon-inpossession counts. But on Count Three, the
jury found Davis not guilty of carjacking
with intent to cause serious bodily injury
(though it did convict him of a lesser
included offense). And on Count Four, the
firearm charge linked to the carjacking, the
jury acquitted Davis entirely.
At sentencing, the probation officer
recommended
multiple
sentencing
enhancements because Davis discharged a
firearm during the carjacking and caused
serious injury to Marion. Davis objected,
pointing out that the jury had acquitted him
of discharging (or even using) a firearm
during the carjacking. But the district court
overruled his objections and applied the

Page 4 of 5
2020 U.S. App. LEXIS 22375, *3

enhancements. The court sentenced Davis to committed the charged crimes.
376 months in prison.
The jury had ample evidence to conclude
On appeal, Davis makes two arguments. He that Davis was in fact the perpetrator.
first argues that the jury had insufficient Consider the different charges:
evidence to convict him on any of the
• Bank Robbery (Count 1) &
charges. Next, he argues that the district
Brandishing a Firearm (Count 2).
court erred by relying on acquitted conduct
Although
Hollingsworth
couldn't
to enhance his sentence. Both arguments
identify the perpetrator, the two other
lack merit.
men involved in the robbery testified
Sufficiency of the Evidence. Davis asks us to
that it was Davis who had forced
vacate his convictions because (he argues)
Hollingsworth to withdraw money at
there was not [*4] enough evidence to find
gunpoint. [*5] What's more, when
him guilty. Although Davis challenges five
officers
eventually
recovered
separate convictions, his argument is
Hollingsworth's phone, they found that
uniform. He claims that this is a case of
someone had logged into Davis's social
mistaken
identity—whoever
robbed
media accounts with it—corroborating
Hollingsworth or stole Marion's car, it
that Davis was the robber.
wasn't him.
• Carjacking (Count 3). Marion
HN1[ ] Our review of the jury verdict is
identified Davis as the carjacker while
deferential. That's because juries—not
testifying that the carjacking was so
traumatic that he would "never forget"
judges—"decide what conclusions should
be drawn from evidence admitted at trial."
the face of his attacker. R. 64, pg. ID
Coleman v. Johnson, 566 U.S. 650, 651,
483. Two other witnesses confirmed this
132 S. Ct. 2060, 182 L. Ed. 2d 978 (2012)
identification.
(per curiam) (cleaned up); see also United
• Felon in Possession (Counts 5 & 6).
States v. Tolliver, 949 F.3d 244, 247 (6th
Multiple witnesses also testified that
Cir. 2020) (per curiam) (discussing the
Davis possessed a firearm during both
importance of giving juries "due
the robbery and the carjacking.
deference"). Thus, we view the evidence in
the light most favorable to the government This testimony gave the jury more than
and draw all reasonable inferences in the enough evidence tying Davis to the charged
government's favor. Then we ask whether crimes.
any rational jury could have convicted Faced with this evidence, Davis does his
Davis. Jackson v. Virginia, 443 U.S. 307, best to show that it is biased or incredible.
319, 99 S. Ct. 2781, 61 L. Ed. 2d 560 He offers several reasons why the jury
(1979). Here, that means the convictions shouldn't have believed Marion's testimony
stand if any rational jury could have found and that of Davis's confederates. But those
that Davis (rather than someone else) arguments go to witness credibility. And

Page 5 of 5
2020 U.S. App. LEXIS 22375, *5

HN2[ ] we may not "consider the
credibility of witnesses" when reviewing the
sufficiency of the evidence. United States v.
Ward, 957 F.3d 691, 696 (6th Cir. 2020)
(cleaned up). Davis made these credibility
arguments to the jury, but the jury chose to
convict Davis anyway. We cannot secondguess that decision.
Acquitted Conduct. Davis next argues [*6]
that the district court erred by relying on
acquitted conduct to increase his guideline
range. But, as Davis admits, this challenge
is a nonstarter. That's because HN3[ ] our
circuit permits district courts to use
acquitted conduct when sentencing a
defendant. United States v. White, 551 F.3d
381, 382 (6th Cir. 2008) (en banc). This
panel cannot overrule that authority. See
Brumbach v. United States, 929 F.3d 791,
795 (6th Cir. 2019).
We affirm.
End of Document

